           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    ACCURACY OF FISCAL YEAR 2009
    TITLE II DISABILITY INSURANCE
    BENEFIT PAYMENTS INVOLVING
   WORKERS’ COMPENSATION OFFSETS


   February 2011       A-04-10-11014




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      February 23, 2011                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Accuracy of Fiscal Year 2009 Title II Disability Insurance Benefit Payments Involving
           Workers' Compensation Offsets (A-04-10-11014)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           accurately offset Title II benefits for Fiscal Year 2009 Disability Insurance (DI) claims
           that involved State workers' compensation (WC) benefits.

           BACKGROUND

           SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
           under Title II of the Social Security Act (Act), as amended. 1 Section 223 of the Act2
           requires that SSA provide monthly DI benefits to individuals who meet specific disability
           requirements.

           Workers injured on the job may qualify for DI benefits in addition to benefits under State
           and Federal WC programs. In general, injured workers receive compensation for lost
           wages through State WC programs. Each State administers its own WC program.
           State WC agencies generally adjudicate claims and act as the repository for WC
           disability claim records. However, employers may purchase WC insurance from private
           insurance companies, receive it through a State insurance fund, or elect self-insurance.

           When an injured worker qualifies for both State WC and Federal DI benefits, the
           combined benefits could result in workers receiving more in disability payments than
           they earned before they became disabled. To prevent this, Congress enacted the




           1
               42 U.S.C. §§ 401 and 423.
           2
               42 U.S.C. § 423.
Page 2 - The Commissioner


WC offset provision under section 224 of the Act. 3 This provision requires that SSA
reduce DI benefits by the amount of any other disability benefit paid under any law or
plan of the United States, a State, or a political subdivision. In this instance, SSA
reduces the DI benefit based on an offset calculation set forth in its policy and
procedures, unless the other disability payment originates from a State with a “reverse
offset” law. States with recognized “reverse offset” laws reduce the WC benefit, and the
injured worker receives the full DI benefit from SSA.

In June 2004, SSA implemented the Title II Redesign Release 3 (Redesign) to improve
the automated processing of Title II initial claims applications and post-entitlement
actions, both of which may involve WC offset claims. The Redesign streamlined the
WC offset process to reduce manual actions. However, the accuracy of the offset
remains dependent on the accuracy of information the employee input to the system.

This is our 14th WC-related report since September 1998. Our previous reviews found
significant payment errors involving WC offsets. See Appendix B for a list of our
13 reports.

SCOPE AND METHODOLOGY
We reviewed a random sample of 250 DI claims from a population of 16,669 claims in
which SSA’s records indicated a WC offset started between October 1, 2008 and
June 30, 2009. In general, SSA’s systems compute changes to WC offsets based on
WC information that staff input to beneficiaries’ records. When a WC offset change is
calculated, the prior offset is recorded as “stopped,” and the new offset is recorded as
“started.”4 As such, our population of DI cases involved WC offsets that began,
changed, or ended during the audit period.

For 51 (20 percent) of the 250 claims reviewed, we did not locate acceptable evidence
of WC benefits in SSA’s records retention systems. 5 As such, we were unable to test
the payment accuracy of these claims.




3
    42 U.S.C. § 424a.
4
 In certain situations, SSA’s initial WC input actions may result in a subsequent systems-calculated
change in a beneficiary’s WC offset amount. For example, SSA systems automatically prorate lump-sum
awards and related expenses over an established period (entered into the system by SSA personnel).
When this period ends, SSA systems automatically recalculate the WC offset, which may change the DI
payment amount.
5
 As detailed later in this report, acceptable evidence to prove WC benefits may come from various
sources and in varying forms, such as a court order or a copy of the WC lump-sum settlement check
containing essential details. SSA, Program Operations Manual System (POMS), DI 52145.001(D).
Page 3 - The Commissioner


To determine the accuracy of the WC offsets for the 250 sampled cases we

•   reviewed all available independent evidence of current WC rates,
•   calculated the WC offset based on the current proven WC benefits data,
•   compared the total benefits paid to the total benefits owed, and
•   obtained SSA’s review and comments for each payment error.

Further information regarding our scope and methodology and our sampling
methodology is in Appendices C and D, respectively.

RESULTS OF REVIEW
Since November 2006, when we examined a similar population of WC offset cases,
SSA’s error rate decreased from 17 percent to about 12 percent. 6 Unfortunately,
payment errors continued to exist because SSA did not always accurately process WC
offsets. Specifically, 29 (11.6 percent) of the 250 DI claims we reviewed had payment
errors. Of the 29 error cases, 15 had underpayments totaling $60,663, and 14 had
overpayments totaling $57,674. From our population of DI claims in which SSA records
indicated a WC offset started between October 1, 2008 and June 30, 2009, we estimate
that

•   approximately 1,000 DI claims, totaling about $4 million, had underpayment errors
    related to the WC offset and

•   approximately 933 DI claims, totaling about $3.8 million, had overpayment errors
    related to the WC offset calculation.

In addition, 9 of the 29 claims had payment errors that would have continued after
June 2010. Based on the number of continuing errors, we estimate that for the
12 months following our audit period, approximately 600 claims had payment errors
totaling about $2.1 million.

Similar to our previous reviews, the payment errors we identified resulted from human
error. SSA personnel misinterpreted or incorrectly applied the amount of WC data to
the offset calculation.

Finally, for 51 (20 percent) of the 250 claims reviewed, we did not locate independent
proof of the WC benefits in SSA’s records retention systems. As a result, we could not
determine whether SSA offset these DI payments correctly. WC payment information is
essential in calculating the amount to offset and is to be maintained indefinitely, as of
September 30, 2008.


6
 SSA OIG, Title II Disability Insurance Benefits with a Workers’ Compensation Offset (A-04-05-15133),
November 22, 2006.
Page 4 - The Commissioner


PAYMENT ERRORS
SSA did not always accurately process WC offsets. While we noted improvement since
our 2006 review, payment errors continue to exist in DI cases involving WC offset.
Specifically, 29 (11.6 percent) of the 250 DI claims we reviewed had payment errors. Of
the 29 error cases, 15 had underpayments totaling $60,663 and 14 had overpayments
totaling $57,674. The payment errors resulted from employee mistakes when
processing the WC offset calculations. Specifically, payment errors occurred because
SSA personnel

•       incorrectly applied WC rates when performing WC calculations,
•       used inaccurate WC payment frequencies to calculate WC offsets,
•       improperly prorated lump-sum WC settlement agreements, 7 and
•       applied offsets to benefits that should not have been offset.

Table 1 identifies the WC processing errors that resulted in payment errors.

               Table 1: Payment Errors Resulting from WC Processing Errors
                                                                Payment Error Dollars
                                            Payment
        Type of WC Processing Errors         Errors      Over-           Under-          Total
                                                       Payments         Payments         Errors
    1      Incorrect Periodic WC Payments     16          $47,601         $16,494        $64,095
    2      Incorrect WC Payment Dates         2               400               0           400
    3      Incorrect Attorney Expenses        6             9,673          15,511        25,184
    4      Incorrect Lump-Sum Proration       2                 0           4,552         4,552
    5      Reverse Offset Not Recognized      3                 0          24,106        24,106
                                TOTALS        29          $57,674         $60,663      $118,337

In one case, we identified an $11,973 underpayment. The underpayment occurred
because SSA incorrectly applied an offset to the beneficiary’s DI benefits. Staff did not
recognize that the beneficiary received WC benefits from the State of Florida that
qualified for reverse offset. Specifically, the beneficiary received temporary total and
permanent total disability benefits from March to August 2008. SSA should not have
offset these benefits against the DI payments.




7
  A lump-sum settlement agreement results in one final payment to the injured worker for all of the
remaining WC benefits due. SSA must prorate the lump-sum award to determine the amount and length
of time to offset the beneficiary’s Title II DI benefits. (SSA, POMS, DI 52150.060.)
Page 5 - The Commissioner


In another example, SSA overpaid a beneficiary’s auxiliaries 8 by $7,989. The
overpayment occurred because SSA used an unverified and incorrect monthly WC rate.
Specifically, SSA used a flat $1,472 monthly WC benefit when the verified WC rate was
initially $1,652 and subsequently changed to $1,619. SSA corrected the beneficiary’s
records and established an overpayment, which the Agency ultimately waived.

At the time of our review, SSA was still paying 9 of the 29 claims in error. Five cases
had continuing underpayments that ranged from $95 to $834 per month, and four had
continuing overpayments that ranged from $69 to $364 per month. We believe the
payment errors likely would have continued had we not identified them or a significant
event occurred that would have caused SSA to review the cases. Therefore, based on
the number of claims with continuing errors, we estimate that for the 12 months
following our audit period, approximately 600 claims had payment errors totaling about
$2.1 million.

Critical to the WC offset calculation is the amount of WC benefits paid by the State or
insurance carrier and whether they are paid weekly, bi-weekly, or monthly. If SSA
personnel apply incorrect WC data in the offset calculation, a payment error is likely to
occur. The most reliable way of ensuring the accuracy of WC data is to obtain
independent proof of the WC data from the insurance carrier administering the claim.
We understand that interpreting the myriad State WC benefits data may be difficult for
SSA personnel processing a WC claim. Although most States maintain information
regarding the status of WC claims, the employer’s insurance carrier also maintains such
information as settlement and benefit payments. The insurance carrier’s WC
information is often only available to SSA in paper record, and the format varies by
insurance carrier. Further, obtaining hard copy WC data from a multitude of insurance
carriers can be tedious, and the timely receipt of information depends on the
responsiveness of the insurance carriers.

As stated earlier, the proper interpretation and application of this information are
essential in calculating a correct WC offset. Given the complexity of this process and
the continuing error rate in WC claims, we previously recommended that SSA explore
alternate methods for obtaining, standardizing, and applying State WC information. We
believe such procedures would help reduce improper payments, as required by
Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
Programs, signed by the President in November 2009. 9 This Order states that
agencies “... must make every effort to confirm that the right recipient is receiving the
right payment for the right reason at the right time.” The Order also adopted a
comprehensive set of policies, including transparency and public scrutiny of significant
payment errors throughout the Government; a focus on identifying and eliminating the
highest improper payments; accountability for reducing improper payments among

8
 The Social Security program recognizes the claimant and the claimant’s family. If the claimant is retired,
disabled, or deceased, monthly benefits are paid to an eligible surviving spouse or parent and children.
SSA refers to the claimant’s family members as “auxiliaries.” 42 U.S.C. § 402(b) – (h).
9
    74 Fed. Reg. 62201 (November 20, 2009).
Page 6 - The Commissioner


Executive Branch agencies and officials; and coordinated Federal, State, and local
government action in identifying and eliminating improper payments. In addition, the
Order requires that agencies set target goals for reducing improper payments.

OFFSET CASES LACKED PROOF OF WC BENEFITS
Agency personnel did not always document WC benefits paid to the individual under
State WC programs. Specifically, for 51 (20 percent) of the 250 sampled DI claims, we
could not locate evidence that Agency personnel had obtained independent verification
of current WC benefits. Such information is necessary to make an accurate offset
calculation. Because verification was not available for these cases, we were unable to
determine whether SSA accurately processed the WC offsets.

SSA policy states that if the claimant cannot provide proof of State WC benefits, SSA
should obtain verification of payments from the insurance carrier, a State WC agency,
or the courts.10 WC verification can be in various forms, such as a

•     printout of benefits from an insurance carrier or State records,
•     WC award notice,
•     court order,
•     copy of a benefits check, or
•     WC settlement agreement.

Because WC data often involve complex, State-specific awards, forms, or settlements
that require some degree of interpretation and analysis, SSA issued policy effective
September 2008 that required permanent retention of all WC evidence. 11 SSA typically
maintains WC evidence in its Paperless Processing Center system or its Claims File
Records Management System—both systems manage electronically imaged
documents. 12 We queried these systems and were unable to identify sufficient WC
evidence for the 51 of the 250 claims.

At a minimum, SSA should have retained WC evidence for 48 of the 51 cases that
lacked evidence. For three cases, the proration of the lump-sum settlement ended
during our audit period, but the lump-sum settlement occurred before SSA’s policy that
required the permanent retention of all WC evidence. As such, SSA may not have
retained the WC evidence for these three cases. However, the WC actions for the
remaining 48 cases occurred after October 1, 2008. Therefore, the WC evidence

10
     SSA, POMS, DI 52145.001(F).
11
     SSA POMS, DI 52145.015.
12
  The Paperless Processing Center system enables SSA’s processing service centers to electronically
view, track, and route workflow and transfer documents throughout the Agency. The Claims File Records
Management System electronically manages records for more than 20 of SSA’s claims processing
systems.
Page 7 - The Commissioner


should have been available in SSA records. For example, in 22 (43 percent) of the
51 cases that did not have WC evidence, the beneficiary’s DI began on or after
October 1, 2008. SSA should have obtained and maintained WC evidence for all of
these cases.

Table 2 details, for the 51 cases, the WC actions that lacked evidence.

              Table 2: Actions Resulting in a Change in the WC Offset
                             WC Action                 Number of Cases
                 Disability Insurance Began                 22
                 Periodic WC Rate Changed                   14
                 Periodic WC Payment Ended                   7
                 Lump-Sum Settlement Started                 4
                 Lump-Sum Settlement Ended                   3
                 Offset Postponed                            1
                              TOTALS                        51

SSA recognizes that the WC workload is complex, and obtaining timely and discernable
WC information is critical to accurately processing WC offset calculations. SSA has
several ongoing efforts to obtain accurate and up-to-date WC data. SSA’s efforts
include the following.

•   California WC Pilot Program: SSA was asked to join a workgroup with the
    California Commission of Health and Safety and Workers Compensation. The
    workgroup will evaluate the feasibility of a pilot program in which California would
    share its WC data with SSA.

•   Centers for Medicare & Medicaid Services (CMS) WC Data Match: SSA is
    pursuing a data match agreement with CMS. The agreement would enable SSA to
    obtain WC information maintained in CMS’ records.

•   Obtain WC Data from Privately Owned Organizations: SSA attempted to
    establish a fee-for-service agreement with a private organization that maintains
    information on more than 14 million WC claims from 32 States with centralized WC
    data. Ultimately, the parties did not reach an agreement. SSA efforts to obtain WC
    data from other organizations encountered challenges related to the amount of fees
    for service and legal requirements governing the protection of an individual’s private
    information. To date, these challenges have prevented SSA from entering any
    agreements.

•   Online Access to State WC Data: SSA established a Web-based WC resource
    page. The Website provides information as to the type of information available, how
    to obtain the information, and links to any guides that assist with interpreting the WC
    information and applying the State’s WC provisions. Currently, 14 States provide
    SSA with online access to some type WC information.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Although SSA’s accuracy rate for DI claims involving a WC offset had improved since
our 2006 audit, we believe SSA could make further improvements toward reducing
payment errors in this workload. The payment accuracy of DI benefits with a WC offset
remains dependent on SSA’s ability to (1) obtain timely and accurate WC information;
and (2) correctly interpret and record the information when processing claims. We
acknowledge that SSA recognizes the importance of paying correct benefit amounts to
injured workers and that this is part of SSA’s goal of providing world-class service and
ensuring stewardship of trust fund resources.

In a November 2006 report, Title II Disability Insurance Benefits with a Workers’
Compensation Offset, 13 we made three recommendations to help SSA improve the
accuracy of the WC offset calculation. We reiterated these recommendations in our
September 2008 report, Accuracy of Title II Disability Insurance Benefit Triennial
Redeterminations for 2006. 14 In its response to our November 2006 report, SSA
indicated it would support legislation to simplify the WC offset calculation, work with
States to standardize the format in which they report WC data, and explore data
exchanges with States that maintain automated WC databases. Although we will not
restate these recommendations in this report, we continue to support them and believe
that, until such corrective actions are implemented, significant payment errors will
continue to occur in WC offset cases.

Specific to this audit, we recommend that SSA implement a cost-effective, risk-based
approach to identify error-prone WC offset cases. For these cases, require independent
review before the offset decision is effectuated. The review should be conducted by a
supervisor or experienced peer and ensure that acceptable WC data were obtained,
correctly interpreted and recorded, and maintained in SSA’s electronic records retention
systems.

AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix E for the full text of SSA’s
comments.




                                                         Patrick P. O’Carroll, Jr.


13
  SSA OIG, Title II Disability Insurance Benefits with a Workers’ Compensation Offset (A-04-05-15133),
November 22, 2006.
14
  SSA OIG, Accuracy of Title II Disability Insurance Benefit Triennial Redeterminations for 2006
(A-04-07-17078), September 9, 2008.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Prior Audit Reports
APPENDIX C – Scope and Methodology
APPENDIX D – Sampling Methodology and Results
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
Act        Social Security Act
CMS        Centers for Medicare & Medicaid Services
DI         Disability Insurance
MBR        Master Beneficiary Record
OASDI      Old-Age, Survivors and Disability Insurance
OIG        Office of the Inspector General
POMS       Program Operations Manual System
Redesign   Title II Redesign Release 3
SSA        Social Security Administration
U.S.C.     United States Code
WC         Workers’ Compensation
                                                                              Appendix B

Prior Audit Reports
          Social Security Administration, Office of the Inspector General,
  Reports Related to Payment Accuracy in Disability Insurance Claims Involving
                          Workers’ Compensation Offsets
  Common
                                                                         Date
Identification                     Report Title
                                                                        Issued
   Number
                Effects of State Awarded Workers’ Compensation
A-04-96-61013                                                                  September 1998
                Payments on Social Security Benefits
                The Social Security Administration Incorrectly Paid
A-04-98-62001   Attorney Fees on Disability Income Cases When                    March 2000
                Workers’ Compensation Payments Were Involved
                The Social Security Administration’s Workers’
A-06-03-13022                                                                    April 2003
                Compensation Data Match with the State of Texas
                Pending Workers’ Compensation: The Social Security
A-08-02-12064   Administration Can Prevent Millions in Title II Disability       June 2003
                Overpayments
                Title II Disability Insurance Benefits with Workers’
A-04-02-21054                                                                    July 2003
                Compensation Underpayment Errors Exceeding $70,000
                The Social Security Administration’s Clean-up of Title II
A-04-03-13042   Disability Insurance Cases with a Workers’                      October 2004
                Compensation Offset
                The Social Security Administration’s Match of Disability
A-06-05-15024   Insurance Records with Texas Workers’ Compensation              August 2005
                Payment Data
                Follow-up of Pending Workers’ Compensation: The
A-08-05-25132   Social Security Administration Can Prevent Millions in         September 2005
                Title II Disability Overpayments
                Implementation of Workers’ Compensation in Title II
A-14-06-16049                                                                    June 2006
                Redesign Release 3
                Title II Disability Insurance Benefits with a Workers'
A-04-05-15133                                                                  November 2006
                Compensation Offset
                Accuracy of Title II Disability Insurance Benefits
A-04-07-17059                                                                   August 2008
                Processed with Workers' Compensation Settlements
                Accuracy of Title II Disability Insurance Benefit Triennial
A-04-07-17078                                                                  September 2008
                Redeterminations for 2006
                Follow-up of Pending Workers Compensation Workers'
A-08-09-19167                                                                    July 2010
                Compensation Settlements
                                                                                      Appendix C

Scope and Methodology
We reviewed a random sample of 250 Disability Insurance (DI) claims from a population
of 16,669 claims in which the Social Security Administration’s (SSA) records indicated a
workers’ compensation (WC) offset started between October 1, 2008 and
June 30, 2009. In general, SSA’s systems compute changes to WC offsets based on
WC information that staff input to beneficiaries’ records. When a WC offset change is
calculated, the prior offset is recorded as “stopped,” and the new offset is recorded as
“started.” As such, our population of DI cases involved WC offsets that began,
changed, or ended during the audit period.

For 51 (20 percent) of the 250 claims reviewed, we did not locate independent proof of
the WC benefits in SSA’s records retention systems. As such, we were unable test the
payment accuracy of these claims.

To accomplish our audit objective, we:

•   Interviewed SSA personnel regarding procedures to process DI claims involving a
    WC offset.
•   Reviewed relevant laws and SSA’s policies and procedures.
•   Reviewed previous reports pertaining to DI claims with a WC offset.
•   Queried SSA’s Master Beneficiary Record (MBR) and the Payment History Update
    System. 1
•   Obtained WC verification from SSA’s Paperless Processing Center System and
    Claims File Records Management System. 2 For those cases lacking WC evidence
    SSA attempted to obtain the verification from those states that have electronic data
    available.




1
  SSA establishes an MBR for each claimant. The MBR maintains pertinent information needed to
accurately pay benefits to the claimant and all entitled dependents. The information maintained includes
identification data (name, Social Security number, date of birth, address), type and date of disability, and
monthly disability insurance benefits. The Payment History Update System captures and retains DI
payment related actions.
2
  The Paperless Processing Center system enables SSA’s processing service centers to electronically
view, track, and route workflow; and transfer documents throughout the Agency. The Claims File
Records Management System electronically manages records for more than 20 of SSA’s claims
processing systems.


                                                    C-1
To determine the accuracy of the WC offsets for the 250 sampled cases, we verified the
WC offset based on the proven WC benefits data. For the cases where the proven WC
benefit information did not agree with what SSA used to calculate the WC offset, we:

•   Completed SSA’s Title II Interactive Computations Facility3 screen to calculate the
    WC offset and resulting DI benefits.
•   Determined the payment error— to do so, we prepared an SSA Form-2204 to
    compare the benefits paid to the recalculated benefits owed.
•   Forwarded all payment error claims to SSA for review and comment.

For nine claims, we determined the payment errors continued after June 30, 2009.
During our audit, we informed SSA of the errors. SSA agreed to correct the offset
calculation and adjust the DI benefits as needed. These errors would likely have
continued had we not identified them or a significant event occurred that would have
caused SSA to review the claims. Therefore, we estimated the number of claims and
the total amount of the payment error that may have continued for 12 months after our
audit period.

The SSA entities reviewed were the Offices of Income Security Programs and Disability
Programs under the Deputy Commissioner for Disability and Income Security Programs.
The electronic data used for this audit were sufficiently reliable to meet our audit
objective. Our tests of internal controls were limited to gaining an understanding of the
laws, regulations and policies that govern the processing of DI claims with a WC offset
and performing the audit steps identified above. We conducted our audit in Atlanta,
Georgia, from August 2009 to September 2010. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




3
 The Title II Interactive Computation Facility is an automated system that enables users to perform
various computations online.


                                                   C-2
                                                                       Appendix D

Sampling Methodology and Results
Sampling Methodology
We reviewed a random sample of 250 Disability Insurance (DI) claims from a population
of 16,669 claims in which the Social Security Administration’s (SSA) records indicated a
workers’ compensation (WC) offset started between October 1, 2008 and
June 30, 2009. Our population of DI cases involved WC offsets that began, changed, or
ended during the audit period.

Sampling Results
Estimation of Payment Errors—DI Claims with a WC Offset Calculation Error

                        DI Claims With a WC Offset Calculation Error
                                 Attribute Appraisal Projections
  Population and Sample Data                                       Number of Claims
  Total Population                                                              16,669
  Sample Size                                                                      250
  Payment Errors Resulting in an Underpayment                                       15
  Payment Errors Resulting in an Overpayment                                        14
  Projection to Population – Underpayments                         Number of Claims
  Lower Limit                                                                      625
  Point Estimate                                                                 1,000
  Upper Limit                                                                    1,511
  Projection to Population – Overpayments                          Number of Claims
  Lower Limit                                                                      572
  Point Estimate                                                                   933
  Upper Limit                                                                    1,432

All projections made at the 90-percent confidence level.




                                                   D-1
                        DI Claims with a WC Offset Calculation Error
                                 Variable Appraisal Projections
  Population and Sample Data                                       Dollar Value of Claims
  Total DI claims Involving a WC offset with a Payment Error                      $118,337
  Payment Errors Resulting in an Underpayment                                      $60,663
  Payment Errors Resulting in an Overpayment                                       $57,674
  Projection to Population – Underpayments                         Dollar Value of Claims
  Lower Limit                                                                   $1,705,764
  Point Estimate                                                                $4,044,780
  Upper Limit                                                                   $6,383,795
  Projection to Population – Overpayments                          Dollar Value of Claims
  Lower Limit                                                                   $1,672,144
  Point Estimate                                                                $3,845,498
  Upper Limit                                                                   $6,018,852

All projections made at the 90-percent confidence level.

Estimation of Claims with Continuing Payment Errors

We determined that nine claims had payment errors that continued after June 30, 2010.
We believe the payment errors would have likely continued had we not identified them
or a significant event occurred that would have caused SSA to review the cases. Based
on the number of claims with continuing errors, we estimate that for the 12 months
following our audit period, approximately 600 claims had payment errors totaling about
$2.1 million.

                            Cases with Continuing Payment Errors
                                 Attribute Appraisal Projections
  Population and Sample Data                                           Number of Cases
  Total Population                                                                  16,669
  Sample Size                                                                         250
  Cases with a Continuing Payment Error                                                 9
  Projection to Population                                             Number of Cases
  Lower Limit                                                                         317
  Point Estimate                                                                      600
  Upper Limit                                                                        1,029

All projections made at the 90-percent confidence level.




                                                   D-2
             1-Year Estimate—Cases with Continuing Payment Errors
Number of Cases with a Continuing Payment Error                                9
Continuing Payment Errors for 9 Cases as of June 2010                     $2,594
Average Continuing Payment Error as of June 2010                         $288.22
Estimate of Cases with a Continuing Payment Error in the Population          600
Estimated Continuing Payment Error for June 2010                        $172,933
Estimated Continuing Payment Error for the Following 12-Month Period   $2,075,196




                                               D-3
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      February 8, 2011                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Accuracy of Fiscal Year 2009 Title II Disability
           Insurance Benefit Payments Involving Workers’ Compensation Offsets (A-04-10-11014)--
           INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Chris Molander at (410) 965-7401.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCURACY OF FISCAL YEAR 2009 TITLE II DISABILITY INSURANCE BENEFIT
PAYMENTS INVOLVING WORKERS’ COMPENSATION OFFSETS”
 (A-04-10-11014)


We offer the following comments:

GENERAL COMMENTS

You reviewed workers’ compensation cases that were new, modified or terminated during
October 1, 2008 to June 30, 2009. By your estimate, we had an 88 percent accuracy rate during
that period, five percent better than you estimated in a similar review two years earlier. We
continue to improve, and as you acknowledge, we have several efforts underway to increase
accuracy even further.

RESPONSE TO RECOMMENDATION

Recommendation

Implement a cost-effective, risk-based approach to identify error-prone Workers’ Compensation
(WC) offset cases. For these cases, require independent review before the offset decision is
effectuated. The review should be conducted by a supervisor or experienced peer and ensure the
acceptable WC data were obtained, correctly interpreted and recorded, and maintained in SSA’s
electronic records retention systems.

Response

We agree. We will modify the WC business process and incorporate an independent peer review
for error-prone cases.

COMMENTS ON PRIOR AUDIT REPORT RECOMMENDATIONS

In “Conclusion and Recommendations,” you cite three recommendations included in previous
reports and say you continue to support those recommendations. We offer the following updated
responses.

Recommendation 1

Support legislation that would simplify and standardize the WC offset calculation.

Response

We continue to work with the Administration to explore ways to simplify and standardize the
WC process.



                                              E-2
Recommendation 2

Work with States to standardize the format used to report WC benefits to SSA.

Response

We discussed this with the States, and we considered establishing a web-based national program
to facilitate standardization. The States were not receptive to our ideas and were reluctant to
invest their resources.

We have taken other actions. We created a WC resource webpage, and we use it as a tool in
processing WC cases. We also established a cross-component workgroup that meets regularly to
explore new ideas for improving our processes.

Recommendation 3

Continue to explore electronic data exchanges with the States that maintain automated WC
databases.

Response

We continually explore data exchange opportunities with all States, but some store their data in
formats incompatible with our systems. We are exploring other possibilities, such as working
with the Centers for Medicare and Medicaid Services to determine if the WC data it collects for
Medicare and Medicaid may be of use to us.




                                               E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division
   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Luis A. Ramírez, Senior Auditor
   Joe Cross, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-10-11014.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
